           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     IMPACT OF UNAUTHORIZED
         EMPLOYMENT ON
     SOCIAL SECURITY BENEFITS


   December 2006    A-14-05-14042




 AUDIT REPORT
                                   Mission
By conducting independent and objective audits, evaluations and
investigations, we inspire public confidence in the integrity and security of
SSA’s programs and operations and protect them against fraud, waste and
abuse. We provide timely, useful and reliable information and advice to
Administration officials, Congress and the public.

                                  Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as
spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                    Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud,
waste and abuse. We commit to integrity and excellence by supporting an
environment that provides a valuable public service while encouraging
employee development and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      December 21, 2006                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Impact of Unauthorized Employment on Social Security Benefits (A-14-05-14042)


           OBJECTIVE
           The objectives of our review were to assess: (1) the accuracy of unauthorized
           employment information recorded on the Social Security Administration’s (SSA)
           Numident Master File (NUMIDENT), 1 and (2) the impact of unauthorized employment
           on Social Security benefits.

           BACKGROUND
           Each year, SSA uses NUMIDENT and earnings information to inform the Department of
           Homeland Security (DHS) about noncitizens who may be working illegally. SSA sends
           DHS information about individuals who have earnings recorded under Social Security
           numbers (SSN) that SSA assigned for nonwork purposes. 2 The information is sent to
           DHS in the form of an electronic data file called the NonWork Alien (NWALIEN) file as
           required by law. 3 The file is sent approximately 6 to 18 months after earnings are first
           reported to SSA.
           According to DHS, resource priorities, data compatibility and possible data accuracy
           problems have prevented it from making effective use of the unauthorized earnings

           1
            The NUMIDENT is a result of SSA’s enumeration process. When individuals apply for an SSN, SSA
           staff assigns an SSN and records information from the application on the NUMIDENT.
           2
             As of October 2003, nonwork SSNs are assigned when DHS has not authorized employment and the
           noncitizen needs the SSN to qualify for benefits that rely on Federal funding such as food stamps, or
           where a State or local government requires an SSN for a noncitizen legally in the United States to receive
           benefits from a State public assistance program. See 20 C.F.R. §§ 422.104 and 422.107. SSA requires
           noncitizens who apply for an SSN to present proof of age, identity, and work authorization status, and
           SSA verifies all immigration documents (i.e., visas, employment authorization status, and permanent
           resident alien cards, etc.) with DHS’ US Citizen and Immigration Services (formerly Immigration and
           Naturalization Services) before assigning an SSN. For an individual eligible for a nonwork SSN, SSA
           assigns a number and issues an SSN card bearing the legend, “NOT VALID FOR EMPLOYMENT.”
           3
            Pursuant to § 414 of Pub. L. 104-208, 110 Stat. 3009, (1996) the Illegal Immigration Reform and
           Immigrant Responsibility Act of 1996, SSA is required to include in the file the names and addresses of
           nonwork numberholders and employers reporting the earnings, as well as the amount of the earnings.
Page 2 – The Commissioner

information. While SSA notifies DHS of possible unauthorized employment, DHS is not
required to tell SSA when it changes a person’s work authorization status from
unauthorized to authorized. Unless the person informs SSA directly of such a change,
NUMIDENT records continue to show the person as not authorized for employment and
SSA includes his or her earnings on the NWALIEN file. 4

The Social Security Protection Act of 2004 (SSPA) Section 211, prevents SSA from
giving noncitizens credit toward future SSA benefits under Title II of the Social Security
Act if they were never authorized to work in the United States (after this referred to as
nonwork SSNs). The law only applies to individuals who were assigned original
nonwork SSNs January 1, 2004 or later. 5 These individuals have to later obtain work
authorization to be insured for Title II benefits. 6 Individuals assigned an original
nonwork SSN before January 1, 2004 are not subject to SSPA’s restrictions.

From a representative 5 percent segment of the NUMIDENT, 7 we identified
57,720 individuals who had prior earnings and, according to their most recent SSN
application, were not work authorized. From this universe, we randomly selected
250 individuals for review. Our sample represented all individuals recorded on the
NUMIDENT file over the past 3 decades who had earnings but, according to SSA’s
records, were never assigned an SSN for employment purposes. We obtained
comprehensive earnings and benefit information for each sample case and, when
available, current immigration and work authorization status from DHS’ Immigration and
Customs Enforcement (ICE). 8 Further information concerning the scope and
methodology of this audit can be found at Appendix B.




4
    Id.
5
 PL 108-203 § 211, “Prohibition on Payment of Title II Benefits to Persons Not Authorized to Work in the
United States.”
6
 The restrictions of Section 211 of the SSPA also do not apply to the individual who was admitted to the
U. S. as a nonimmigrant visitor for business, or as an alien crewman under specified provisions of the
Immigration and Nationality Act, Section 101(a) (15)(B) and (D).
7
  SSA stores NUMIDENT records in equal segments by arranging records in numerical order according to
the last two digits of the SSN (i.e. 80-84, 85-89, 90-94, etc.). Each segment represents 5 percent of all
NUMIDENT records and there are 20 total segments. It is common practice for SSA to use a segment to
estimate results to the entire file. For our population, we randomly selected NUMIDENT Segment 17 and,
as of November 1, 2004, it had 21,406,075 records. As of that date, SSA had assigned nonwork SSNs to
373,600 individuals in Segment 17, and 57,720 of these individuals had prior earnings.
8
 ICE is the DHS component that reviewed our 250 sample cases. ICE agents manually researched
immigration and employment status for each case.
Page 3 – The Commissioner

RESULTS OF REVIEW
Based on our review of information obtained from DHS, we estimate that more than a
third of work authorization information contained in SSA’s NUMIDENT file for nonwork
SSNs was no longer accurate. DHS found that work authorization status had changed
from unauthorized to authorized for over a third of our 250 sample cases. The
remaining cases were either still unauthorized or DHS could not locate immigration
information for the individuals. Although data that no longer reflects current work
authorization status reduces the usefulness of the NWALIEN file for DHS, we found that
SSA could use data mining techniques and the information it now records on SSN
applications to increase the usefulness of the NWALIEN file records.

We found that SSPA may have minimal impact on future SSA benefits to noncitizens
since most noncitizens provided nonwork SSNs were enumerated prior to
implementation of SSPA. Based on our sample results, we estimate that
378,640 individuals in the NUMIDENT (1) were assigned nonwork SSNs before
January 2004, (2) have never been work authorized, (3) had $25.4 billion in Social
Security earnings, and (4) because they were assigned original nonwork SSNs before
January 1, 2004, will not be affected by SSPA’s restrictions (see Appendix B for details).

INTEGRITY OF WORK AUTHORIZATION INFORMATION ON THE NUMIDENT

The information we received from DHS in January 2006 showed that, over time, work
authorization status changed from unauthorized to authorized for more than one-third of
our 250 sample cases. Those changes were not shown as reported to SSA and/or
recorded on SSA’s records. Work authorization status for the remaining cases was
either still unauthorized as shown on SSA’s records or could not be confirmed. DHS
indicated that:

      Employment was now authorized in 91 of the 250 cases (36.4 percent). These
       individuals had become Legal Permanent Residents9 (LPR), naturalized citizens
       or nonimmigrants with a current Employment Authorization Document (EAD). 10

      Employment was still not authorized in 82 of the 250 cases (32.8 percent).
       These individuals were either temporary visitors, foreign students or
       nonimmigrants with expired EADs.


9
  A LPR is a noncitizen who has been given permission by DHS to make his or her permanent home in
the U. S. Individuals who have permanent residence are issued a green card and can travel as much as
they like. Their place of residence must be the U.S. and kept on a permanent basis.
10
   Noncitizens who are temporarily in the U.S. may apply for an EAD. An EAD permits work in the U.S.
and the specific categories that require an EAD include (but are not limited to) asylum seekers, refugees,
students seeking particular types of employment, applicants for permanent residence status, people in or
applying for temporary protected status, fiancés of U.S. citizens, and dependents of foreign government
officials. An EAD is not required for a LPR.
Page 4 – The Commissioner

      Individuals in 14 of the 250 sample cases were shown as deported or in the U.S.
       illegally (5.6 percent). 11

      Immigration status could not be confirmed in 63 of the 250 cases (25.2 percent).
        DHS could not locate a record for 54 of the 63 cases. Additionally, for 9 of the
        63 cases, DHS could locate the record but could not determine current
        immigration status. For example, in 3 of the 9 cases, immigration status had not
        been recorded.

                     Current DHS Work Authorization Status Compared to SSA's
                                         NUMIDENT file
                                             Deported or            Status Not
                                         Illegal Presence 14        Confirmed
                                                                        63

                               Work Not
                             Authorized 82



                                                                          Work Now
                                                                         Authorized 91



                  Status Not Confirmed                         Work Now Authorized
                  Work Not Authorized                          Deported or Illegal Presence

We found that work authorization information is no longer correct for at least
36.4 percent of the NUMIDENT records in our sample. Therefore, the same information
may be incorrect for 420,000 of the estimated 1.15 million NUMIDENT nonwork records
associated with employment. 12

When SSA combined unauthorized employment and annual earnings information to
create the 2004 NWALIEN file and inform DHS of illegal employment, it would have
included 109 of the 250 cases in our NUMIDENT sample. Sample results showed that
work authorization information was either incorrect or could not be confirmed for three
fourths of the 109 NWALIEN records. 13 Additional data analysis showed that the
unconfirmed cases have characteristics similar to those where work is not authorized.
For example, we found that the average length of work history for both the unauthorized
11
  We referred these 14 individuals to our Office of Investigations (OI) for additional review. OI has
referred the cases to DHS.
12
  The estimated 1.15 million nonwork NUMIDENT records with recorded earnings is based on multiplying
our sample population—57,720 nonwork records with earnings in 1 of 20 segments of the NUMIDENT—
by 20 segments. The 420,000 potentially incorrect nonwork records associated with earnings is based on
multiplying the 1.15 million records by 36.4 percent, the percentage of sample cases where employment
authorization changed and SSA was not notified of the change.
13
  The 109 cases included 59 cases where authorized employment information was incorrect, 21 where
employment status was not confirmed, and 29 where employment was still not authorized.
Page 5 – The Commissioner

and unconfirmed cases in our 250-case sample is 4 years, and about 30 percent of the
workers had Calendar Year (CY) 2004 earnings. In contrast, the average length of work
history for those now authorized to work is 11 years, and 65 percent had CY 2004
earnings. Based on the similarities of these two groups, DHS may want to use both
unauthorized and unconfirmed records to determine which employers listed on the
NWALIEN file are most likely to engage in illegal hiring practices.

We believe that SSA and DHS should explore the use of data analysis to evaluate
NWALIEN data and make it more useful for monitoring possible unauthorized
employment. Such data mining would allow DHS to identify employers who appear to
use a high number of illegal workers. 14 For example, if resource limits impact the
number of NWALIEN records that DHS can examine, data mining would help DHS
prioritize its work. DHS could use data mining to identify and concentrate on only those
employers who appear to use a disproportionate number of unauthorized or
unconfirmed employees, or operate in sensitive industries. 15

USE OF DHS NUMBERS

Starting in March 2005, SSA required personnel to use new software procedures known
as SS-5 Assistant to help complete SSN applications. 16 The SS-5 Assistant helps
personnel enter the correct information for SSN applications, by collecting and
documenting the required evidence, including the DHS Alien or Admission Numbers for
all noncitizens and naturalized citizens. The SS-5 Assistant uses the DHS numbers to
automatically query on-line immigration records and verify immigration status.

We reviewed the evidence that 158 noncitizens submitted with their applications for
original nonwork SSNs in March, April and May 2005 (See Appendix B for details). In
our review of the 158 applications, we determined that SSA now captures the Alien or
Admission Number 60 percent of the time. 17 Over time, SSA could improve the value of
the NWALIEN file for workplace enforcement by including DHS Alien or Admission
numbers captured in the SSN application process on the NWALIEN file. This would
help DHS locate corresponding records. 18
IMPACT OF UNAUTHORIZED EMPLOYMENT ON BENEFITS
14
     Employers who report unauthorized earnings are identified on the NWALIEN record.
15
     Sensitive industries would include airlines, seaport management, etc.
16
  The SS-5 Assistant is a set of computer screens and logic designed to guide Social Security staff in
completing applications for an SSN. It enhances the SSN application process by helping users follow
existing policies and collect the correct evidence.
17
  In cases where the Alien or Admission Number was not recorded, the SSN information was taken
outside the regular SS-5 process, usually in conjunction with applications for Social Security benefits.
18
  Pursuant to § 414 of Pub. L. 104-208, 110 Stat. 3009, (1996) the Illegal Immigration Reform and
Immigrant Responsibility Act of 1996, SSA is required to include in the file the names and addresses of
nonwork number holders and employers reporting the earnings, as well as the amount of the earnings.
The inclusion of additional fields would require legislative action.
Page 6 – The Commissioner

SSPA prohibits SSA from giving noncitizens credit for benefits under Title II of the
Social Security Act if SSA neither assigned them original SSNs prior to 2004, nor
authorized work. 19 We analyzed nonwork SSN NUMIDENT records and Social Security
earnings records to assess the potential impact that SSPA and trends in unauthorized
employment might have on future SSA benefits. Between January 1972 and
November 2004, in one segment of the NUMIDENT, SSA assigned 373,600 individuals
a nonwork SSN. In the course of those 32 years, we found:

 35.4 percent of the 373,600 applicants acquired work authorization status and
  changed their status on SSA’s records;

 49.2 percent of the 373,600 applicants did not have recorded earnings or change
  their work authorization status on SSA’s records; and

 15.4 percent of the 373,600 applicants had recorded earnings and did not change
  their work authorization status on SSA’s records. We sampled this group to
  evaluate the accuracy of employment authorization information as recorded on the
  NUMIDENT and NWALIEN files. We also used the group to delineate the number of
  individuals on SSA’s records who are shown as unauthorized to work and potentially
  eligible for benefits.

Since the late 1990s, SSA has increased restrictions on who can receive a nonwork
SSN. 20 This policy change has resulted in a significant decrease in the number of
nonwork SSNs that SSA assigns each year. Between Fiscal Years (FY) 1998 and
2005, the number of nonwork SSNs assigned decreased by nearly 89 percent, from
132,865 in FY 1998 to 14,686 in FY 2005. This decrease happened to coincide with
SSPA restrictions and will significantly reduce the impact SSPA will have on SSA
benefits.

If current trends continue, only a small percentage of individuals assigned a nonwork
SSN in 2005 will eventually find employment, remain unauthorized to work and be
subject to SSPA’s restrictions. This is especially true if we consider that only
15.4 percent of the individuals in our sample population who were originally assigned a
nonwork SSN and found employment, remained unauthorized to work on SSA’s records
over time. In addition, in our sample, we found that one-third of the 15.4 percent did not
report to SSA when their work authorization status changed.




19
  The prohibition does not apply to the individual admitted to the U. S. as a nonimmigrant visitor for
business, or as an alien crewman under specified provisions of the Immigration and Nationality Act,
Section 101(a) (15)(B) and (D).
20
  POMS RM 00203.510. To compare current and past policies for the assignment of nonwork SSNs, see
current and prior versions of RM 00203.510, especially November 2, 2001 – February 24, 2002.
Page 7 – The Commissioner

Based on our sample results, we estimate there are 378,640 individuals on the
NUMIDENT with earnings who have never been authorized to work. All were assigned
nonwork SSNs before 2004 and are not subject to SSPA’s restrictions. Since 1972,
these individuals have earned an estimated $25.4 billion in unauthorized employment
(see Appendix B for further details). The average age for this group in our 250 sample
is 44, and no one was receiving benefits at the time of our fieldwork.

As shown in the following table, we reviewed the future benefit eligibility for the
159 sample cases DHS indicated were not authorized to work or their work status was
not confirmed. 21 Specifically, we determined whether these 159 individuals had
accumulated sufficient periods of unauthorized employment to be potentially eligible for
Social Security benefits.

Benefit Earned – Individuals in Our Sample Not Authorized for Employment or
Employment Status Was Unconfirmed by DHS

      Employment            Retirement         Survivor       Disability          No
                                                                                              Total
     Status Per DHS          Benefit           Benefit         Benefit          Benefit
Not Authorized                    5                17               5              55           82
Illegal Presence                  0                 2               3              9            14
Status Unconfirmed                5                10              11              37           63
         Total                    10               29              19             101          159

 Of the 82 individuals in our sample who were not authorized to work on DHS’
  records, 27 had an average of 8 years’ employment and were potentially eligible for
  some type of Title II benefit. Twenty-one of the 27 had recent earnings and
  therefore are probably still working.

 Five of the 14 individuals classified as in the U.S. illegally had an average of 9 years’
  employment and enough earnings to be potentially eligible for survivor or disability
  benefits. Four of the five had recent earnings.

 Although the work authorization status of 63 individuals was unconfirmed, 26 had an
  average of 8 years’ employment and enough earnings to be potentially eligible for
  Title II benefits. Nineteen of the 26 had recent earnings.

Although individuals in our sample who were not authorized for employment and
continued to work may eventually earn a Title II retirement benefit, some may change to
an authorized work status with DHS or leave the U.S. before receiving benefit
payments.


21
  We determined future benefit eligibility based on date of birth, Social Security earnings through 2004
and the onset of death, retirement or disability. We did not include nonearning factors that could prevent
benefit eligibility, such as an illegal immigration status.
Page 8 – The Commissioner

CONCLUSION AND RECOMMENDATIONS
Work authorization information was incorrect or could not be verified for 61.6 percent of
the records in our 250 case sample. 22 Also, 38.4 percent of the individuals sampled
were not authorized to work in the U.S. 23 In addition, although DHS could not
determine work authorization status for one out of every four individuals in our sample,
we could still identify their employer and this gives those records potential enforcement
value. SSA would make employer work authorization programs more effective if it could
correct immigration and employment status recorded on nearly 36.4 percent of all
nonwork records.

To improve the integrity of work authorization information, SSA should consider using
the DHS Alien and Admission numbers it collects in the SSN application process to
check immigration and work authorization status as part of the NWALIEN process. If
work authorization status changed during the past year, SSA could record the change
and exclude the individual from the NWALIEN file. In discussions with DHS, SSA could
consider different NWALIEN file characteristics to determine whether there are ways to
classify or group NWALIEN records to show the likelihood that work authorization may
have changed. This information would help DHS prioritize records for review and make
more efficient use of its resources. Lastly, since an estimated 6 percent of the records
in our sample involved individuals who were in the U.S illegally, SSA could work with
DHS to identify these records as priority cases for DHS.

We recommend SSA consider:

1. Working with DHS to determine what information could be added to the NWALIEN
   file to improve its usefulness.
2. Working with DHS to determine the types of data mining techniques that would
   improve the usefulness of unauthorized employment information.




22
  We found employment now authorized (i.e. incorrect on Social Security records) in 91 of the
250 sample cases (36.4 percent), and DHS could not confirm or determine employment status in
63 cases (25.2 percent). This totals 61.6 percent.
23
   We found employment still not authorized in 82 of the 250 sample cases (32.8 percent) and individuals
in 14 sample cases were shown as deported or in the U.S. illegally (5.6 percent). This totals 38.4 percent
not authorized to work.
Page 9 – The Commissioner

AGENCY COMMENTS
SSA agreed with the intent of our recommendations. SSA stated that it has worked with
DHS in the past to refine the NWALIEN file to meet DHS’ requirements. However, SSA
stated that neither SSA nor DHS is in a position to know what additional information
might be helpful. As a result, SSA does not consider our recommendations feasible
under current circumstances and considers them closed. The Agency’s comments are
included in Appendix C.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms

CY         Calendar Year
DHS        Department of Homeland Security
EAD        Employment Authorization Document
FY         Fiscal Year
ICE        Immigration and Customs Enforcement
LPR        Legal Permanent Resident
NUMIDENT   Numident Master File
NWALIEN    Nonwork Alien
OI         Office of Investigations
SSA        Social Security Administration
SSN        Social Security Number
SSPA       Social Security Protection Act
                                                                                  Appendix B

Scope and Methodology
In November 2004, we randomly selected a 5 percent segment of the Social Security
Administration’s (SSA) Numident Master File (NUMIDENT) and collected summary
earnings information for each segment record. 1 From the segment, we copied records
for 57,720 individuals with earnings who, according to their last Social Security number
(SSN) application, were not work authorized.

From the 57,720 records, we randomly selected a sample of 250 individuals for review.
For each individual record sampled, we obtained comprehensive earnings and benefit
information and, where available, current immigration status from the Department of
Homeland Security (DHS) Immigration and Customs Enforcement (ICE). We also
researched key laws, regulations, policies and procedures pertaining to immigration
status and employment authorization. We spoke with SSA and DHS staff about the
impact the rules and regulations have on Agency programs.

To obtain a second audit population, we copied Segment 17 of the NUMIDENT records
for all 954 individuals who were assigned original nonwork SSNs from January 1, 2004
through August 19, 2005. We collected summary benefit and earnings information for
each of the 954 records. We also reviewed the documentation that 158 of the 954
individuals submitted with their SSN applications. SSA processed the 158 applications
from March 2005 through May 2005.

We conducted our review in accordance with generally accepted government auditing
standards. Our audit work was performed between March 2005 and February 2006 at
DHS’ headquarters in the District of Columbia and at SSA’s headquarters in Baltimore,
Maryland. Our work focused on the Office of Systems.




1
  SSA stores NUMIDENT records in equal segments by arranging records in numerical order according to
the last two digits of the SSN (i.e. 80-84, 85-89, 90-94, etc). Each segment represents 5 percent of all
NUMIDENT records and there are 20 segments in total. It is common practice for SSA to use a segment
to estimate results to the entire file. For our population, we randomly selected NUMIDENT Segment 17
and, as of November 1, 2004, it contained 21,406,075 records.


                                                  B-1
     SAMPLE RESULTS – Estimated Earnings for Individuals in the Sample
                   who are not Authorized to Work

Population and Sample Size                                                Attributes

Sample Universe – 1 segment of the NUMIDENT                                21,406,075

Sample Population – Individuals in the Segment Who Have
                                                                               57,720
Earnings and are Not Authorized to Work

Sample Size                                                                       250
Sample Results – Estimate of Individuals
Not Authorized to Work and Had                     Number of              Amount of
Earnings Prior to January 2004                     Individuals             Earnings

Sample Individuals who are Not Authorized
to Work and had Earnings Prior to January                  82              $5,509,389
2004

Point Estimate (for 1 segment)                        18,932            $1,272,007,732

Projection lower limit                                16,102             $635,045,106
Projection upper limit                                21,939            $1,908,970,359
Sample Results (Point Estimate x 20
                                                     378,640           $25,440,154,640
segments)
   Note: Projections were calculated at 90-percent confidence level.




                                             B-2
                  Appendix C

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM



Date:      December 13, 2006                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Impact of Unauthorized Employment on
           Social Security Benefits" (A-14-05-14042)--INFORMATION


           Please accept our “revised” response to the subject draft report. After a discussion with your
           staff, we have reconsidered our response to the recommendations and would like our original
           comments dated December 6, 2006 disregarded.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Revised Response




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “IMPACT OF UNAUTHORIZED EMPLOYMENT ON SOCIAL SECURITY
BENEFITS”(A-14-05-14042)

Thank you for the opportunity to review and provide comments on this draft report. The Social
Security Administration (SSA) is committed to ensuring that individuals who are authorized to
work are provided proper credit and proper benefits based on an accurate work record. The
report does not identify any fraud, waste or abuse in the administration of SSA programs.
Rather, the report suggests that SSA undertake activities outside the scope of its mission without
regard to SSA’s current budget environment. In this light, we are further concerned that the
report states SSA should consider undertaking such activities in order to assist the Department of
Homeland Security (DHS) given DHS’ limited resources. While SSA could “consider working
with DHS” to find ways to improve the usefulness of the Nonwork Alien (NWALIEN) file, it is
not SSA’s mission to verify employment authorization status. Updating employment
authorization status in the Numident or performing any extensive data analysis before submitting
the NWALIEN file could be labor intensive. Any costs incurred from providing services that are
not part of SSA’s mission cannot be borne by the Social Security trust funds without the proper
reimbursement.

There are additional concerns regarding the two objectives of the report. The first objective is,
“to assess the accuracy of unauthorized employment information recorded on SSA’s Numident
Master File.” The report incorrectly states that the work authorization data as recorded in SSA
records is inaccurate. When a noncitizen applies for an original or replacement Social Security
number (SSN) card, SSA verifies with DHS all immigration documents presented in support of
the SSN application. Thus, the Numident serves as a “snapshot in time” as it records the
individual’s work authorization status at the time the SSN card was issued. OIG did not assess
the accuracy of the work authorization status at the time the SSN card was issued; rather, OIG
assessed whether the work authorization status as recorded in SSA’s records reflected the
individual’s current work authorization status. The Numident, however, is not intended and does
not act as a repository of work authorization status or contain earnings information. Only DHS
can determine current work authorization for a noncitizen. Therefore, to suggest that the
Numident file does not accurately record the “unauthorized” work status of an individual at a
certain date, other than the date that the file is created, misrepresents the function and purpose of
the Numident file.

The second objective of the report is “to assess the impact of unauthorized employment on
Social Security benefits.” It is not clear why OIG believes that payment of benefits to
noncitizens who qualify for those benefits under current law is an area of concern. SSA
administers the law as written. Further, we note that a citizen who is not authorized to work
today may well become eligible to work at a future time; conversely, a noncitizen who is
authorized to work today may lose that authorization at a future time. Thus, under current law,
work authorization or lack of work authorization—or even lawful or unlawful presence in the
United States—at any point in time is not a predictor of eligibility for benefits at retirement age.




                                                 C-2
In the report, OIG suggests that SSA annually re-verify work authorization status in preparation
of the NWALIEN file in order to assist DHS in targeting worksite enforcement. SSA currently
verifies and, if needed, updates the work authorization status of all noncitizens at the time the
noncitizen applies for Social Security benefits to ensure that he or she meets certain factors of
benefit entitlement, such as lawful presence and work authorization. (At any time, an individual
may notify SSA of a change in work authorization status.) Given that the Numident information
has no adverse impact on SSA operations or on the expenditure of trust fund monies, it is not
clear why SSA should expend trust fund resources to make changes that have no benefit to the
Agency or the public. SSA is very concerned about the finding that DHS could not determine
immigration/work status on 25 percent of OIG’s sample for this review. This in itself would
seem to be an impediment to enforcement action that should be addressed by DHS. DHS has
indicated it is working on improving its databases. When their work is complete, it should make
it easier for them to track the status of noncitizens.

Another OIG conclusion in the report was that if SSA captured the DHS Alien or Admission
numbers through SS-5 Assistant, SSA would be able to use that information when developing
the NWALIEN file and exclude those individuals that had a change in employment status. The
inclusion of the DHS Alien or Admission number would not change the immigration and
employment status on SSA’s records. (Currently, an individual must notify SSA of a change in
work authorization status; SSA cannot accept the change from any other source.)

Finally, the recommendations made in this report may be moot in the near future, as the House
and Senate-passed immigration reform bills (H.R. 4437 and S. 2611, respectively) both include
provisions to make mandatory an employment eligibility verification system and S. 2611 would
repeal the requirement that SSA provide the NWALIEN file to DHS, so using limited resources
to explore changes would be of questionable value. Although the 109th Congress has adjourned,
similar proposals may be introduced in the 110th Congress. As the report indicates, SSA has
acted to reduce the number of nonwork SSNs to an insignificant number; therefore, the problem
of noncitizens employed based on an SSN issued for nonwork purposes is of limited duration.

Recommendation 1

SSA should consider working with DHS to determine what information could be added to the
NWALIEN file to improve its usefulness.

Comment

We agree with the intent of this recommendation. SSA has worked with DHS in the past to
refine the file to meet its requirements. SSA works cooperatively with DHS in a number of areas
and is certainly willing to continue to consider any proposal for reimbursable work that DHS
might offer. However, DHS has not attempted to use the NWALIEN file in any meaningful
way, so neither SSA nor DHS is in a position to know what additional information might be
helpful. We also note that currently, SSA only has the legislative authority via 8 U.S.C.
1360(c)(2) to provide the following data from the earnings record: 1) the name and address of
the alien; 2) the name and address of the person reporting the earnings; and 3) the amount of
earnings. SSA cannot disclose additional data from the earnings record (which is tax return data)



                                               C-3
unless there is an expressed authorization within section 6103 of the IRC (26 U.S.C. § 6103).
DHS would have to seek legislation which would authorize SSA to provide additional data from
its earnings records to the NWALIEN file.

Therefore, based on our concerns and given that work authorization status information in SSA’s
files is never going to be as current as that in DHS’ own files, we do not believe that there is any
additional action SSA could take to improve DHS capabilities. Having completed its
consideration of this recommendation, SSA does not consider this recommendation feasible
under current circumstances and considers it closed.

Recommendation 2

SSA should consider working with DHS to determine the types of data mining techniques that
would improve the usefulness of unauthorized employment information.

Comment

We agree with the intent of the recommendation; however DHS has purview over the collection
and maintenance of information related to work eligibility and would be in the best position to
identify effective data mining techniques of its records concerning unauthorized employment
information. Moreover, SSA would need to ensure that any proposal for disclosing additional
information from SSA records to DHS would be authorized by applicable statutes and
regulations. There would also be concerns as the work authorization information SSA has on
record may not be updated and data mining information that may not be up to date could raise
significant concerns about accuracy.

SSA works cooperatively with DHS in a number of areas and is certainly willing to continue to
consider any proposal for reimbursable work that DHS might offer. However, as stated in our
response to recommendation 1, DHS has not attempted to use the current unauthorized
employment information (NWALIEN file) that we provide in any meaningful way, so neither
SSA nor DHS is in a position to know what additional information or data mining might be
helpful.

Therefore, based on our concerns and given that DHS is fully capable of undertaking data mining
techniques with its files of current work authorization status, we do not believe that there is any
additional action SSA could take to improve DHS capabilities. Having completed its
consideration of this recommendation, SSA does not consider this recommendation feasible
under current circumstances and considers it closed.




                                                C-4
                                                                        Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, Data Analysis and Technology Audit Division
   (410) 965-9702

   Phil Rogofsky, Audit Manager, General Controls
   (410) 965-9719

   Patrick Kennedy, Audit Manager, Mainframe Controls and Advanced Techniques
   (410) 965-9724

Acknowledgments

In addition to those named above:

   Harold W. Hunter, Senior Auditor

   Mike Atherton, IT Specialist

   Brennan Kraje, Statistician

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-14-05-14042.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
